                                        SOCIAL SECURITY
MEMORANDUM

Date:      July 23, 2009                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Quick Response Evaluation: Improper Payments Report (A-15-09-29125)


           The attached final quick response evaluation presents the results of our review. Our
           objective was to determine whether the Agency accurately reported improper payment
           information in the Debt Management Tables and the Improper Payments Information
           Act of 2002 Detailed Report published in the Fiscal Year 2008 Performance and
           Accountability Report.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                            Patrick P. O’Carroll, Jr.

           Attachment
QUICK RESPONSE
 EVALUATION
Improper Payments Report
      A-15-09-29125




        July 2009
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                            Background
OBJECTIVE
Our objective was to determine whether the Agency accurately reported improper
payment information in the Debt Management Tables and the Improper Payments
Information Act of 2002 (IPIA 1) Detailed Report published in the Fiscal Year (FY) 2008
Performance and Accountability Report (PAR).

BACKGROUND
DEBT MANAGEMENT

In FY 2008, the Social Security Administration (SSA) collected $2.81 billion in program
benefit overpayments. SSA used its internal debt collection methods, such as benefit
withholding, to collect overpayments from monthly benefits when the person was still in
current pay status. When the person was no longer in current pay status, SSA used its
billing and follow-up system. That system enabled SSA to send a series of
progressively stronger notices requesting repayment and make telephone calls to
negotiate repayment. In addition to the internal methods, SSA used external collection
techniques, as follows.

• Tax Refund Offset/Treasury Offset Program – In 1992, SSA began recovering
  delinquent Old-Age, Survivors and Disability Insurance (OASDI) overpayments from
  former beneficiaries by offsetting their Federal tax refunds through a process called
  Tax Refund Offset (TRO). 2 In 1998, TRO was expanded to include delinquent
  Supplemental Security Income (SSI) overpayments.3 Also in 1998, SSA began using
  the Treasury Offset Program (TOP) to recover OASDI overpayments through
  administrative offset--reduction or withholding of a Federal payment other than a tax
  refund. 4 In 2002, SSA implemented TOP for SSI debts. 5



1
    Pub. L. No. 107-300, 31 U.S.C. § 3321.
2
  The Omnibus Budget Reconciliation Act of 1990, Pub. L. No. 101-508, 104 Stat. 1388, allows SSA to
recover delinquent OASDI overpayments through TRO. See also, Social Security Act § 204(a)(1)(A),
42 U.S.C. § 404(a)(1)(A).
3
    TRO for SSI debts is authorized by the Deficit Reduction Act of 1984, Pub. L. No. 98-369.
4
 The Debt Collection Improvement Act of 1996, Pub. L. No. 104-134, authorizes SSA to collect certain
OASDI overpayments by TOP. See also, Social Security Act § 204(f)(1) and (2), 42 U.S.C. § 404(f)(1)
and (2).
5
 TOP for SSI debts is authorized by the Foster Care Independence Act of 1999, Pub. L. No. 106-169
(H.R. 3443).


Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                                    1
• Credit Bureau Reporting – The Social Security Domestic Employment Reform Act
  of 1994 authorizes SSA to report certain delinquent OASDI overpayments to credit
  bureaus.6 In 1998, SSA began reporting these overpayments to credit bureaus as a
  way of influencing individuals to repay their debts.

• Cross Program Recovery 7 – In 2002, SSA began recovering delinquent SSI
  overpayments from monthly Old-Age and Survivors Insurance (OASI) and Disability
  Insurance (DI) benefits due the debtor. In March 2004, the Social Security Protection
  Act of 2004 was enacted and covers OASDI, SSI, and Special Veterans Benefits. It
  allowed SSA, subject to certain limitations, to collect an overpayment in any of the
  three programs from benefits payable from any of those three programs. 8

• Administrative Wage Garnishment 9 – The Debt Collection Improvement Act of
  1996 (DCIA) authorizes SSA to collect delinquent overpayments by garnishing the
  wages of private and public sector employees. 10 In April 2005, the first garnishment
  orders were issued to employers of OASI, DI, and SSI debtors who had delinquent
  overpayments in 2005. In August 2006, the program was expanded to include all
  existing delinquent debtors.

• Automatic Netting of SSI Payments – SSA began automatically netting SSI
  overpayments against SSI underpayments in September 2002.

• Non-Entitled Debtor Initiative – In 2005, SSA implemented the Non-Entitled Debtor
  (NED) initiative, which is a process that electronically identifies, controls, and
  resolves overpayments owed by persons who are not entitled to Social Security
  benefits or SSI payments. NED allows these overpayments to be collected via TOP
  and Administrative Wage Garnishment. 11




6
    Pub. L. No. 103-387 § 5(a) (1994), Social Security Act § 204(f)(1), 42 U.S.C. § 404(f)(1).
7
  In June 2007, our review of Cross Program Recovery of Benefit Overpayments (A-13-06-16031) found
that the Agency had not fully implemented its cross-program authority as authorized under the Social
Security Protection Act of 2004.
8
    Pub. L. No. 108-203 § 210 (2004), 42 U.S.C. § 1320b-17.
9
 Our September 2008 review of the Administrative Wage Garnishment (A-13-08-28009) found that,
generally, the Agency complied with its policies and procedures when it used Administrative Wage
Garnishment to collect OASDI and SSI delinquent debt; however, we found three system-related
problems and two instances in which the debtors’ employers were uncooperative or non-responsive.
10
     Pub. L. No. 104-134 § 31001(o)(1) (1996).
11
     NED is authorized by the Foster Care Independence Act of 1999, Pub. L. No. 106-169 (H.R. 3443).



Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                                    2
The results of two FY 2004 audit reports12 indicated that SSA had made significant
efforts to identify, prevent, and recover OASDI and SSI overpayments over the past
several years. In those reports, we recommended that SSA continue evaluating the
recovery tools that were not yet implemented but were authorized through legislation.
Since the issuance of those reports, SSA has initiated several additional debt recovery
programs, such as the Administrative Wage Garnishment and Federal salary offset. 13

To determine whether SSA benefited from implementing various recovery efforts, we
reviewed the amount of collections for both OASDI and SSI from the date of inception
for each recovery mechanism. The data provided by SSA for TRO, TOP, and Credit
Bureau Reporting were based on the calendar year. Therefore, the analysis we
conducted used calendar year data for TRO, TOP, and Credit Bureau Reporting and FY
data for the remaining initiatives. Although we did not independently verify the recovery
statistics provided, the data suggest that the above-referenced recovery initiatives have
resulted in increased recoveries. For example, when TRO and TOP were implemented
in 1992, $54.7 million was recovered for OASI and DI. In 2008, $125.3 million was
recovered. TRO and TOP were not implemented for SSI until 1998. During that year,
$33 million was recovered, and in 2008, $69.1 million was recovered. Appendix C
contains graphs for each initiative showing the collections for OASDI and SSI from the
date of inception.

IMPROPER PAYMENTS

IPIA was signed into law on November 26, 2002. It requires that the head of each
agency, in accordance with guidance prescribed by the Director of the Office of
Management and Budget (OMB), annually review all programs and activities it
administers and identify all such programs and activities that may be susceptible to
significant improper payments.14 An estimate of the annual amount of improper
payments must be submitted to Congress before March 31 of the following applicable
year. 15

Each year, SSA reports payment accuracy rates for both the OASDI and SSI programs
based on the stewardship reviews. The reviews are used as the basic measure to
report on the accuracy of benefit payments. Each year, SSA reports improper
payments (both overpayments and underpayments) from its stewardship reviews of
nonmedical aspects of the OASI, DI, and SSI programs. In accordance with OMB’s
guidelines implementing the provisions of IPIA, SSA reports payments that should not

12
  Supplemental Security Income Overpayments (A-01-04-24022) and Overpayments in the Old-Age,
Survivors and Disability Insurance Program (A-01-04-24023).

13
  Authorized by DCIA for OASDI debts and the Foster Care Independence Act of 1999 for SSI debts.
This program was implemented by SSA in FY 2006 and allows paying agencies to withhold amounts
each pay period from a Federal employee who owes a debt to a creditor agency.
14
     Pub. L. No. 107-300 § 2(a).
15
     Pub. L. No. 107-300 § 2(b).


Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                                3
have been made or payments that were made in an incorrect amount as improper.
Stewardship review findings provide the basis for reports to Congress and other
monitoring authorities. Data from these reviews are also used in corrective action
planning and in monitoring performance, as required by the Government Performance
and Results Act of 1993. 16

Payment accuracy rates developed in SSA’s stewardship reviews reflect the accuracy
of payments issued to OASDI beneficiaries and SSI recipients who received or were
issued a payment for the sample month. A statistically valid national sample is selected
monthly from the payment rolls, which consist of OASDI and SSI beneficiaries in current
pay status. For each sample selected, the recipient or representative payee is
interviewed, collateral contacts are made, as needed, and all nonmedical eligibility
factors are redeveloped as of the current sample month. Findings are input into a
national database for analysis and report preparation. Separate rates are determined
for accuracy of payments in terms of over- and underpayment dollars.




16
     Pub. L. No. 103-62.


Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                    4
                                                          Results of Review
Overall, our review determined that the Agency accurately presented information for the
Debt Management and Improper Payments tables in the FY 2008 PAR. Specifically, we
reviewed the (1) FY 2008 Quarterly Debt Management Activities Table, (2) Debt
Management Activities Table, (3) Improper Payments Experience FY 2005 – FY 2007,
and (4) Improper Payments Reduction Outlook FY 2008 - 2011.

DEBT MANAGEMENT

FY 2008 Quarterly Debt Management Activities Table

We recalculated the figures in the FY 2008 Quarterly Debt Management Activities
Table 17 and found two numbers that were incorrectly reported. The fourth quarter
figures for both “Total collections (cumulative)” and “TOP collections (cumulative)” did
not reconcile to the amounts from the Treasury Report on Receivables (TROR)
reports.18 Each total was inaccurate by approximately $3 million. The Office of Finance
stated that the TROR for SSI was updated, and the figures in the PAR were not updated
to reflect the changes. Although these figures were incorrectly stated, the amounts are
not significant and should not be carried forward to the FY 2009 PAR; therefore,
restating the amounts should not be necessary.

Debt Management Activities Table

The figures in the Debt Management Activities Table 19 represented legally defined
overpayments. 20 These figures were obtained from the TROR. For our review, we
recalculated the figures in the table and compared certain figures to determine whether
they were appropriately reported. When we recalculated the figures in the Debt
Management Activities Table, we found one of the percentage statistics was incorrectly
reported. The “percent change in collections from the prior FY” figure for FY 2004 was
reported as 2.5 percent. However, based on our calculations, the percentage should
have been 3.5 percent. 21 Although this figure was incorrectly stated, the difference is


17
     FY 2008 PAR, page 169.
18
   The TROR serves as a management report that informs Federal decisionmakers of the total book value
of the receivables owed to Federal agencies and the status of the Government’s debt portfolio.
19
     FY 2008 PAR, page 170.
20
  An overpayment is the total amount an individual received for any period that exceeds the total amount
that should have been paid for the period. For specific information on how SSA defines overpayments,
refer to SSA’s Program Operations Manual System, GN 02201.001 and SM 00610.515.
21
  The percentage was recalculated as follows (in thousands): (2,226,737 – 2,307,601)/ 2,307,601
= -3.5 percent. Figures were provided by the Division of Central Accounting and Reporting (DCAR).


Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                                    5
not significant and should not be carried forward to the FY 2009 PAR; therefore,
restating the figure should not be necessary.

During our analysis, we focused on recalculating the “average number of months to
clear receivables” to determine whether the fluctuations reported were accurate. We
also compared the average number of months to clear receivables in relation to
outstanding actual debt, new debt detection, and collections on receivables. The tables
below break out OASI, DI, and SSI figures for FYs 2004 through 2008.

                   Debt Management Activities - OASI (in thousands)
                      FY 2004     FY 2005        FY 2006       FY 2007       FY 2008

 Outstanding Actual $1,948,131   $2,076,607 $2,237,761 $2,498,808 $2,685,224
 Debt
 New Debt           $1,085,007   $1,231,967 $1,456,109 $1,571,639 $1,762,316
 Detection
 (Receivables)
 Collections on      $942,061    $1,030,218 $1,170,724 $1,181,622 $1,360,609
 Receivables
 Average Number of      22           20           18           18          18
 Months to Clear
 Receivables
 Source: Debt Management Workpapers prepared by DCAR based on TROR reports

The average number of months to clear receivables for OASI remained fairly consistent
for FYs 2004 to 2008. This was a result of a consistent change in the ratio of new debt
detection to average outstanding actual debt.

                     Debt Management Activities - DI (in thousands)
                        FY 2004    FY 2005        FY 2006       FY 2007      FY 2008


 Outstanding Actual   $3,198,483 $3,771,387 $4,378,031 $4,735,551      $5,017,926
 Debt
 New Debt Detection     $980,690 $1,413,604 $1,683,403 $1,401,216      $1,458,521
 (Receivables)
 Collections on         $451,558   $505,463      $658,868   $713,052    $784,264
 Receivables
 Average Number of       38           30           29          39           40
 Months to Clear
 Receivables
  Source: Debt Management Workpapers prepared by DCAR based on TROR reports

The average number of months to clear receivables for DI did not remain as consistent.
In FY 2006, it took SSA only 29 months on average to clear a receivable; however, in
FY 2007, it took an average of 39 months to clear a receivable. For FY 2007, the
average number of months to clear a receivable increased because new debt
decreased at a rate of 16.8 percent, yet average outstanding debt increased at a rate of


Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                    6
11.8 percent. We requested the Office of Payment and Recovery Policy (OPRP)
personnel provide us the underlying causes of the fluctuations in the average number of
months to clear receivables for the DI program. OPRP stated there was a significant
decrease in the number of continuing disability reviews (CDR) conducted in FY 2006
(1.33 million) compared to FY 2007 (764,000). This decrease in CDRs resulted in a
significant drop in disability cessations and may have caused most of the 16.8-percent
decrease in new debt detections for the DI program and the resulting increase in the
average number of months to clear receivables in FY 2007.

                    Debt Management Activities - SSI (in thousands)
                     FY 2004     FY 2005          FY 2006       FY 2007      FY 2008

 Outstanding       $7,113,549   $7,306,769     $7,031,701  $7,005,299 $7,181,206
 Actual Debt
 New Debt          $1,978,635   $2,050,186     $2,014,551  $2,019,725 $2,351,517
 Detection
 (Receivables)
 Collections on     $833,118     $901,627       $935,111    $966,178   $1,032,391
 Receivables
 Average Number        47           42             43          42          36
 of Months to
 Clear
 Receivables
 Source: Debt Management Workpapers prepared by DCAR based on TROR reports

The average number of months to clear receivables for SSI remained consistent for FYs
2005 through 2007. However, in FY 2008, the average number of months decreased
substantially. This decrease resulted from new debt increasing at a rate of
16.4 percent, while average outstanding debt increased at a rate of 1.1 percent. We
also requested that OPRP personnel provide us the underlying causes of the
fluctuations in the average number of months to clear receivables for the SSI program.
They stated that from May through August 2008, the Internal Revenue Service released
economic stimulus payments to more than 130 million individuals. The stimulus
payments were subject to offset against outstanding tax and non-tax liabilities in the
same fashion as regular tax refunds. Therefore, SSI overpayments were subject to
TOP during the release of the stimulus payments in FY 2008, and in part may have lead
to an increase of collections and a decrease in the average number of months to clear
receivables. In addition, SSI redeterminations increased from 1 million in FY 2007 to
1.2 million in FY 2008. This increase in redeterminations contributed to the increase in
new debt in FY 2008 and the overall decrease in the average number of months to clear
receivables. See Appendix D for further details on the calculations we analyzed.




Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                    7
IMPROPER PAYMENTS INFORMATION ACT OF 2002 DETAILED REPORT

Improper Payments Experience FY 2005 – FY 2007 Table

The Improper Payments Experience FY 2005 – FY 2007 Table 22 figures were based on
the statistical sample used in the Stewardship Reviews conducted by the Office of
Quality Performance (OQP). Each FY, OQP conducted stewardship reviews of both
OASDI and SSI payments issued in that FY. The stewardship reviews were based on a
monthly sample selection from the OASDI and SSI payment rolls that consisted of
beneficiaries in current pay status. Each month, about 80 OASI cases, 40 DI cases,
and 360 SSI cases were selected for review. According to the FY 2007 Title II Payment
Accuracy (Stewardship) Report published by OQP, “. . . the sample is sufficient to
provide statistically reliable data on the overall payment accuracy of the universe of RSI
and DI payments issued in the FY. The annual sample is not large enough to provide
statistically reliable information about the individual deficiencies23 in a given year.
Therefore, Stewardship sample data are viewed over a period of years to aid in
identifying trends.”24 If an error was detected, OQP determined whether the payment
error met the definition of improper (see Appendix E). If a program payment was not
considered “unavoidable,” it was included in the projection of improper payment
experience.

In contrast to the statistical information presented by OQP, OPRP tracked legally
defined overpayment information regardless of whether it was considered improper.
OPRP used this information to forecast overpayments and analyze trends. The
information was then shared with the Office of Budget 25 and incorporated into an exhibit
in the Agency’s budget. The main use of this information was for internal analysis
conducted by various SSA components.

The differences between the information presented by OQP and the information tracked
by OPRP presented difficulties when we tried to compare them. For example, the
amount of overpayments for the DI program for FY 2007 reported in the FY 2008 PAR
was $864 million. Based on the report provided by OPRP, the new debt that was
actually detected for the DI program in FY 2007 was $1.3 billion. The differences
occurred because each component evaluated two separate measures of overpayments.
OQP evaluated undetected overpayments meeting the definition of improper for a single
FY and then projected that experience to program outlays for the same FY while OPRP
tallied actual overpayments detected in the operating processes in a FY, but that could
represent a debt from the same FY or an accumulation of previous FYs. The purpose

22
     FY 2008 PAR, page 172.
23
  Some cases had more than one “error” causing an incorrect payment. Each of these “errors” was
referred to as a deficiency.
24
   Fiscal Year (FY) 2007 Title II Payment Accuracy (Stewardship) Report,
http://quality.ba.ad.ssa.gov/hq/reports/reportspdf/FY2007_Title_II_Stewardship_Report.pdf
25
     Social Security Administration: Debt Collection – Benefit Overpayments.


Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                               8
of the OQP reviews was to project the amount of error found in the sample month to the
universe to arrive at the correct payment accuracy number. According to OQP
personnel, for any individual Social Security number (SSN), overpayment errors found
were only attributable to the incorrect payment in the sample month and did not include
other additional overpayments made during other months of the FY for that particular
SSN. If other errors outside the sample month were discovered, OQP reported the
errors to the Feedback Coordinator in the program service center with jurisdiction over
the SSN under review as informational feedback but did not include them in error dollars
recorded for the sample month.

OPRP tracked debts based on overpayments that SSA actually detected in the current
year. Although the overpayments were detected in the current year, they may have
corresponded to historical events that initiated the overpayment. For example, suppose
during the stewardship review for the sample month of June, OQP discovered a
$50 overpayment for a particular SSN for the sample month. During the redevelopment
of the case to determine the accuracy of the June payment, OQP also discovered the
$50 payments for March, April, and May were also overpayments. Because OQP only
included overpayments detected for the sample month, it recorded an overpayment
error of $50, which was then projected to the universe. OQP would also report the
overpayment errors from March through June to Operations as informational feedback.
Once the total $200 overpayment was assessed on the beneficiary’s record, the
$200 would be recorded as new debt by SSA that was included in the information
tracked by OPRP.

Improper Payments Reduction Outlook FY 2008 – FY 2011 Table

The Improper Payments Reduction Outlook FY 2008 – FY 2011 Table 26 figures were
derived from both OMB and the Mid-Session Review of the President’s FY 2009
Budget. These figures did not correlate to the figures provided by OQP’s FY 2007
Stewardship Report or OPRP’s actual program overpayments detected for FY 2008.
According to the PAR, the payment dollars represent estimated outlays as presented in
the Mid-Session Review of the President’s FY 2009 Budget. OMB then provided the
target percentages for both overpayments and underpayments for OASDI and SSI.
From program outlays and OMB’s payment accuracy targets, projected dollars for
improper overpayments and underpayments were computed. According to OPRP,
OMB had not provided a reason for the target percentages. OPRP indicated the
percentages provided were unrealistic and should have been reassessed based on the
budget restraints and the resulting reduced amounts of redeterminations and continuing
disability reviews being conducted. Below is a comparison of the target rates provided
by OMB versus the rates that were reported in the PAR based on the Stewardship
Reviews conducted by OQP.




26
     FY 2008 PAR, Page 173.


Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                   9
                              Target vs. Reported Error Rates
                           FY 2005              FY 2006                        FY 2007
                      Target Reported      Target     Reported           Target     Reported
                       Rate     Rate 27     Rate        Rate              Rate        Rate
         OASDI
     Underpayments     0.2%       0.19%         0.2%        0.12%         0.2%         0.13%
     Overpayments      0.2%       0.45%         0.2%        0.33%         0.2%         0.21%

           SSI
     Underpayments     1.2%     1.4%       1.2%              2.2%         1.2%          1.5%
     Overpayments      5.1%     6.4%       4.6%              7.9%         4.3%          9.1%
     Source: SSA’s FY 2004 and FY 2008 PARs




27
 Reported rates are based on the accuracy rates determined by the stewardship reviews conducted by
OQP. The rates are presented in Table 1 on page 172 of the FY 2008 PAR.


Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                              10
                                                                 Conclusion
Overall, our review determined that the Agency accurately presented information for the
Debt Management and Improper Payments sections in the FY 2008 PAR. The figures
presented in the Debt Management Tables were accurately reported; however, three
figures were incorrectly stated. Although the figures were incorrectly stated, the related
amounts were not significant and should not be carried forward to the FY 2009 PAR;
therefore, restating the figures should not be necessary. The Improper Payments
Experience figures were accurately presented based on the Stewardship Reviews
conducted by OQP. The figures were based on statistical information obtained from a
monthly sample selection from the OASDI and SSI payment rolls. By contrast, OPRP
tracked improper payment information based on OMB’s definition of improper
payments. Lastly, The Improper Payments Reduction Outlook figures were accurately
presented based on the target percentages provided by OMB and the Mid-Session
Review of the President’s FY 2009 Budget.




Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                    11
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Debt Management Initiatives
APPENDIX D – Analysis of Average Number of Months to Clear Receivables
APPENDIX E – Defining Erroneous Payments
APPENDIX F – OIG Contacts and Staff Acknowledgments




Quick Response Evaluation: Improper Payments Report (A-15-09-29125)
                                                                      Appendix A

Acronyms

    CDR               Continuing Disability Review

    DCAR              Division of Central Accounting and Reporting

    DCIA              Debt Collection Improvement Act of 1996

    DI                Disability Insurance

    FCIA              Foster Care Independence Act of 1999

    FY                Fiscal Year

    IPIA              Improper Payments Information Act of 2002

    NED               Non-Entitled Debtor

    OASDI             Old-Age, Survivors and Disability Insurance

    OASI              Old-Age and Survivors Insurance

    OIG               Office of the Inspector General

    OMB               Office of Management and Budget

    OPRP              Office of Payment and Recovery Policy

    OQP               Office of Quality Performance

    PAR               Performance and Accountability Report

    SSA               Social Security Administration

    SSI               Supplemental Security Income

    SSN               Social Security Number

    TOP               Treasury Offset Program

    TRO               Tax Refund Offset

    TROR              Treasury Report on Receivables




Quick Response Evaluation: Improper Payments Report (A-15-09-29125)
                                                                                   Appendix B

Scope and Methodology
Our objective was to determine whether the Agency accurately reported on improper
payment information in the Debt Management Tables and the Improper Payments
Information Act of 2002 (IPIA) Detailed Report published in the Fiscal Year (FY) 2008
Performance and Accountability Report (PAR). To accomplish our objective, we:

• Reviewed applicable Federal laws and regulations as well as the Social Security
  Administration’s Program Operations Manual System.

• Reviewed the FY 2007 Stewardship Review Reports for the Old-Age, Survivors and
  Disability Insurance and the Supplemental Security Income programs.

• Reviewed the Treasury Reports on Receivables for FY 2008.

• Requested data from the Offices of Finance and Payment and Recovery Policy to
  support the figures presented in the Debt Management Activities tables and the
  Improper Payments Information Act of 2002 Detailed Report.

• Analyzed the calculations provided by the Office of Finance, which are used for the
  Debt Management Tables.

• Analyzed the source data for various tables in the Improper Payments Information
  Act of 2002 Detailed Report.

We determined the data obtained from the Social Security Administration used in this
report were sufficiently reliable given the evaluation objective and their intended use.

We performed our review in May 2009 in Baltimore, Maryland. The report reviewed was
the Improper Payments Information Act of 2002 Detailed Report and the Debt
Management Tables in the FY 2008 PAR. We conducted our review in accordance with
the President’s Council on Integrity and Efficiency’s 1 Quality Standards for Inspections.




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C App. 3 § 11.


Quick Response Evaluation: Improper Payments Report (A-15-09-29125)
                                                                                                                                         Appendix C

Debt Management Initiatives1

                                                                         Tax Refund Offset / Treasury Offset
                                                                                  (Calendar Year)

                               140



                               120



                               100
    $ Recovery (in millions)




                               80
                                                                                                                                                             OASDI
                                                                                                                                                             SSI
                               60



                               40



                               20



                                 -
                                     1992   1993   1994   1995   1996   1997   1998   1999   2000    2001   2002   2003   2004   2005   2006   2007   2008
                                                                                             Years


Figure 1: Tax Refund Offset (TRO) for Old-Age, Survivors and Disability Insurance (OASDI) was
initiated in 1992. TRO was initiated for Supplemental Security Income (SSI) in 1998; however,
some of the collections applied to the 1997 calendar tax year. TRO was expanded to include the
Treasury Offset Program (TOP) in 1998 for OASDI and in 2002 for SSI.




1
 Figures provided by “The External Collection Operations Report” provided by the Office of Retirement
and Survivors Insurance Systems.


Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                                                                                             C-1
                                                              Credit Bureau Reporting
                                                                  (Calendar Year)

                             45


                             40


                             35


                             30
  $ Recovery (in millions)




                             25
                                                                                                                    OASDI
                                                                                                                    SSI
                             20


                             15


                             10


                             5


                              -
                                  1998   1999   2000   2001   2002     2003    2004     2005   2006   2007   2008
                                                                      Years


Figure 2: Credit Bureau Reporting was initiated for OASDI in 1998 and SSI in 2002.




Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                                                   C-2
                                                       Cross Program Recovery
                                                             (Fiscal Year)

                             80



                             70



                             60
  $ Recovery (in millions)




                             50


                                                                                                 OASDI
                             40
                                                                                                 SSI


                             30



                             20



                             10



                              -
                                  2002   2003   2004           2005         2006   2007   2008
                                                               Years


Figure 3: Cross Program Recovery was initiated for the collection of SSI overpayments from
monthly OASDI benefit payments in 2002. It was expanded in 2007 to include the recovery of
OASDI overpayments from SSI underpayments.




Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                                C-3
                                                Wage Garnishment
                                                  (Fiscal Year)

                             25




                             20
  $ Recovery (In millions)




                             15

                                                                                         OASDI
                                                                                         SSI

                             10




                             5




                              -
                                  2005   2006                      2007    2008
                                                     Years


Figure 4: Wage Garnishment was initiated for the collection of OASDI and SSI overpayments in
2005.




Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                        C-4
                                                           Netting
                                                        (Fiscal Year)

                             140



                             120



                             100
  $ Recovery (in millions)




                             80
                                                                                             OASDI
                                                                                             SSI
                             60



                             40



                             20



                               -
                                   2002   2003   2004       2005        2006   2007   2008
                                                            Years


Figure 5: In 2002, the Social Security Administration began automatically netting SSI
overpayments against SSI underpayments. This initiative corresponds solely to SSI.




Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                            C-5
                                                                                 Appendix D

Analysis of Average Number of Months to Clear
Receivables
During our analysis of the Debt Management Activities Table, 1 we focused on the
average number of months to clear receivables for Disability Insurance (DI) and
Supplemental Security Income (SSI) because of the large fluctuations from one fiscal
year (FY) to the next. Specifically, we analyzed the change in DI average months from
29 in FY 2006 to 39 in FY 2007 and SSI average months from 42 in FY 2007 to 36 in
FY 2008. We first obtained the equation used to calculate the amounts.2 Using the
data provided by the Office of Finance, we recalculated the figures to verify the amounts
were presented accurately. The calculations were as follows.

Disability Insurance

                                Description                           Amount
                     New Debt – FY 2006                              $1,683,403
                     Outstanding Actual Debt – 2006                  $4,378,031
                     Outstanding Actual Debt – 2005                  $3,771,387

                                       12
                                                                          = 29 Months
                (1,683,403) / [(4,378,031 + 3,771,387) / 2] 3

                                Description                          Amount
                     New Debt – 2007                                 $1,401,216
                     Outstanding Actual Debt – 2007                  $4,735,551
                     Outstanding Actual Debt – 2006                  $4,378,031

                                       12
                                                                           = 39 Months
                                                                     4
                    (1,401,216) / [(4,735,551 + 4,378,031) / 2]

1
    FY 2008 PAR, page 170.
2
  The equation used to calculate average number of months to clear receivables is 12 / (New Debt
Detection for the current FY) + (Average Outstanding Actual Debt); Average Outstanding Actual Debt is
the Average Outstanding Actual Debt of the prior FY plus the Average Outstanding Actual Debt of the
current FY divided by 2.
3
  The denominator is also known as the Accounts Receivable Turnover Ratio, which computed to
.4132 for 2006.
4
  The denominator is also known as the Accounts Receivable Turnover Ratio, which computed to
.3075 for 2007.


Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                                 D-1
New Debt in 2007 for DI was decreasing at a rate of 16.77 percent, 5 and average debt
for DI was increasing at a rate of 11.83 percent. 6 Since average debt was increasing at
a higher rate, the Social Security Administration (SSA) could not collect its debts as
quickly as in 2006. The accounts receivable turnover ratios decreased from 2006 to
2007 which also indicated that the Agency was collecting its receivables at a slower
rate.

Supplemental Security Income

                               Description                           Amount
                    New Debt – 2007                                 $2,019,725
                    Outstanding Actual Debt – 2007                  $7,005,299
                    Outstanding Actual Debt – 2006                  $7,031,701

                                       12
                                                                              = 42 Months
                   (2,019,725) / [(7,005,299 + 7,031,701) / 2] 7

                               Description                           Amount
                    New Debt – 2008                                 $2,351,517
                    Outstanding Actual Debt – 2008                  $7,181,206
                    Outstanding Actual Debt – 2007                  $7,005,299

                                       12
                                                                              = 36 Months
                                                                    8
                    (2,351,517) / [(7,181,206 + 7,005,299) / 2]




5
 New Debt in 2007 decreased from New Debt in 2006 by 16.77 percent [(1,401,216 – 1,683,403) /
1,683,403].
6
  The average Outstanding Actual Debt for 2007 increased over the average for 2006 by 11.83 percent
{[((4,735,551 + 4,378,031) / 2) – ((4,378,031 + 3,771,387) / 2)] / ((4,378,031 + 3,771,387) / 2)}.
7
  The denominator is also known as the Accounts Receivable Turnover Ratio, which computed to
.2878 for 2007.
8
 The denominator is also known as the Accounts Receivable Turnover Ratio, which computed to
.3316 for 2008.



Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                               D-2
New Debt in 2008 for SSI was increasing at a rate of 16.4 percent 9 while average debt
was only increasing at a rate of 1.1 percent. 10 Since average debt was increasing at a
slower rate, SSA was collecting its debts more quickly, which resulted in fewer months
to collect the outstanding accounts receivable. The accounts receivable turnover ratios
increased from 2007 to 2008, which also indicated that the Agency was collecting its
receivables at a faster rate.




9
 New Debt in 2008 increased from New Debt in 2007 by 16.4 percent [(2,351,517 – 2,019,725) /
2,019,725].
10
   The average Outstanding Actual Debt for 2008 increased over the average for 2007 by 1.1 percent
{[((7,181,206 + 7,005,299) / 2) – ((7,005,299 + 7,031,701) / 2)] / ((7,005,299 + 7,031,701) / 2)}.


Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                                  D-3
                                                                                                                       Appendix E

 Defining Erroneous Payments
 The following table identifies the types of Social Security Administration (SSA) payments, programs affected, current reporting status,
 reasons for the payments, and their classification. There are two classifications.

 •     Unavoidable - Payments resulting from legal or policy requirements. These payments are not considered erroneous.
 •     Avoidable - Payments that should be reflected in the erroneous payment estimate because they could be reduced through
       changes in administrative actions.

                                                Current
  Types of Payments                Program       Status             Reason for Overpayment/Underpayment                     Classification
Payments following a              DI 1 and   Not currently   When SSA is required by law to make payments during the       Unavoidable
cessation of eligibility          SSI 2      reflected as    appeals process, these payments are not erroneous.
due to a continuing                          an error
disability review
Payments made under               SSI        Reported as     When due process requires SSI payments to continue,           Unavoidable
the Goldberg-Kelly due-                      unavoidable     although the Agency has determined that a payment
process Supreme Court                        erroneous       reduction or termination is in order, such payments are not
decision                                     payment in      erroneous.
                                             the APP 3
Payments made                     SSI        Reported as     The law requires that SSI payments be made on the first of    Unavoidable
incorrectly because of                       unavoidable     the month based on projected income for that particular
program design                               erroneous       month. Changes in the recipient’s status can occur during
                                             payment in      the month, which causes the recipient’s eligibility to
                                             the APP         change. Because SSA cannot prevent the overpayment
                                                             from being made, this situation should not be reflected in
                                                             the Agency’s erroneous payment rate.

 1
     Disability Insurance (DI).
 2
     Supplemental Security Income (SSI).
 3
     Annual Performance Plan (APP).


 Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                                                                     E-1
                                                Current
  Types of Payments            Program           Status                Reason for Overpayment/Underpayment                         Classification
Payments issued after         OASI, 4 DI     Not currently    Dollars released after death (either electronically or in the      Unavoidable
death                         and SSI        reflected as     form of a paper check), which are reclaimed by the                 except for fraud
                                             an error 5       Department of the Treasury or returned unendorsed,                 or misuse
                                                              should not be reflected in the Agency's erroneous payment
                                                              rate. Conversely, payments made after death which are
                                                              improperly cashed or withdrawn, and are subject to
                                                              overpayment recovery, should be reported.
Non-receipt of payment        OASI, DI       Not currently    Duplicate Payments issued in accordance with the                   Unavoidable
                              and SSI        reflected as     Robinson-Reyf Court decision are unavoidable and should            except for fraud
                                             an error         not be reflected in the Agency's reports on erroneous              or misuse
                                                              payments. The only exception is duplicates incorrectly sent
                                                              to abusers.
Payments based on             DI and SSI     Not currently    Payments are not erroneous if they are the result of a             Should not be
medical eligibility                          reflected as     medical improvement review standard or a situation where           included in the
                                             an error         the beneficiary would have been ineligible had the law             erroneous
                                                              permitted retroactive ineligibility.                               payment estimate
Payments made for Title       DI and         Not currently    When program design requires that the Agency make                  Unavoidable
II beneficiaries based on     OASI           reflected as     payments based on estimated earnings, these payments
earnings estimates                           an error         should not be considered erroneous.
Undetected error              OASI, DI       Not currently    The Agency should not reflect undetected error in its              Should not be
                              and SSI        reported as      erroneous payment rate unless it has evidence that a               included in the
                                             an error         specific type of erroneous payment was made.                       erroneous
                                                                                                                                 payment estimate
Duplicate payments to         Admin-         Not currently    Systems do not capture when the overpayment occurs;                Avoidable
attorneys, vendors, and       istrative      reported as      however, this type of error does not meet the reporting
employees                     Expense        an error         threshold.




 4
     Old-Age and Survivors Insurance (OASI).
 5
     Per Office of Quality Performance (OQP), these payments can be recorded as erroneous if not returned timely per the stewardship review protocol.


 Quick Response Evaluation: Improper Payments Report (A-15-09-29125)                                                                           E-2
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Victoria Vetter, Director, Financial Audit Division

   Mark Meehan, Audit Manager, Financial Audit Division

Acknowledgments
In addition to those named above:

   Kelly Stankus, Auditor

   Lori Lang, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-09-29125.




Quick Response Evaluation: Improper Payments Report (A-15-09-29125)
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform


Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                   Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations

OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                                 Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                           Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                                Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
